LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

January 28, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-438: CLEMENTE AVELINO PEREIDA V. WILLIAM P. BARR, ATTORNEY GENERAL
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief for Petitioner
referenced above contains 12,647 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 28th day of January 2020.

